               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Readiness for Package Growth-
            Delivery Operations

         Management Advisory Report




                                       December 11, 2013

Report Number DR-MA-14-001
                                                                   December 11, 2013

                                                    Readiness for Package Growth-
                                                               Delivery Operations

                                                       Report Number DR-MA-14-001



BACKGROUND:
Strong customer demand for goods            shelving system, and using parcel data
purchased over the Internet has driven      will further bolster package readiness.
growth in the package market, despite       Meeting these challenges will help the
otherwise declining mail volume. This       Postal Service manage package growth,
growing package segment provides the        improve its competitiveness in the
U.S. Postal Service an opportunity to       package business, and better meet
expand services and increase revenue.       customers' needs.
From fiscal years (FYs) 2010 to 2012,
                                            WHAT THE OIG RECOMMENDED:
Postal Service package revenue
                                            We recommended the vice president,
increased by $1.4 billion, or 14 percent,
                                            Delivery and Post Office Operations,
and volume increased by 445 million
                                            continue to test and implement dynamic
mailpieces, or 14 percent. The package
                                            routing, modify package compartments
volume also increased by 13.7 percent
                                            on cluster box units, and use operational
in the first 3 quarters of FY 2013,
                                            reports to monitor and manage carrier
compared to the same period last year.
                                            package pickup data. We also
This report is one of a series of U.S.      recommended coordination with the vice
Postal Service Office of Inspector          president, Engineering Systems, to
General (OIG) products that address the     implement a vehicle shelving system.
Postal Service’s readiness for growth in
the package business.                       Link to review the entire report

Our objective was to assess operational
readiness for package growth in delivery
operations.

WHAT THE OIG FOUND:
The Postal Service’s Delivery
Operations organization has
successfully managed package growth
from a mail volume and workhour
standpoint. However, opportunities exist
to improve readiness by implementing
dynamic routing and modifying package
compartments on cluster box units.
Improving the retention of city carrier
assistants, establishing a vehicle
December 11, 2013

MEMORANDUM FOR:            EDWARD F. PHELAN, JR.
                           VICE PRESIDENT, DELIVERY AND POST OFFICE
                           OPERATIONS

                            MICHAEL J. AMATO
                            VICE PRESIDENT, ENGINEERING SYSTEMS


                                E-Signed by Robert Batta
                              VERIFY authenticity with e-Sign




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Advisory Report - Readiness for Package
                            Growth - Delivery Operations
                            (Report Number DR-MA-14-001)

This report presents the results of our self-initiated review of Readiness for Package
Growth in Delivery Operations (Project Number 13XG030DR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, director, Delivery
and Post Office Operations, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Readiness for Package Growth - Delivery Operations                                                                DR-MA-14-001




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

Readiness for Package Growth ....................................................................................... 2

Recommendations .......................................................................................................... 8

Management's Comments............................................................................................... 9

Evaluation of Management's Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objective, Scope, and Methodology .......................................................................... 10

   Prior Audit Coverage ................................................................................................. 11

Appendix B: Management’s Comments ........................................................................ 12
Readiness for Package Growth - Delivery Operations                                                     DR-MA-14-001



Introduction

This report presents the results of our self-initiated review of readiness for package 1
growth. Our objective was to assess 2 operational readiness for package growth in
Delivery Operations (Project Number 13XG030DR000). See Appendix A for additional
information about this audit.

Strong customer demand for goods purchased over the Internet has driven growth in
the package market. In an otherwise declining mail market, growth in the package
segment provides the U.S. Postal Service an opportunity to expand services and
increase revenue. In its 2013 Five-Year Business Plan, the Postal Service projects
package volume growth of 5 to 6 percent per year through fiscal year (FY) 2017. The
Postal Service projects that revenue from packages will grow by 6 to 7 percent annually
during this same period 3 (see Figure 1).

                       Figure 1. Projected Package Volume and Revenue




          Source: Postal Service Five-Year Business Plan, April 2013.


Conclusion

The Postal Service’s Delivery Operations organization has successfully managed
package growth from a mail volume and workhour standpoint. However, opportunities
exist to improve readiness by implementing dynamic routing and modifying package


1
  Publication 32, Glossary of Postal Terms, defines packages as mail that does not meet the mail processing
category of letter-size or flat-size mail. Packages are usually enclosed in a mailing container, such as a carton or
parcel. For the purpose of this review, we consider Priority Mail, Parcel Select Mail, Parcel Return Service Mail,
                                           ®
Package Service Mail, First-Class Mail Packages, First-Class Package Service, Single-Piece Parcel Post, and
Express Mail to be packages.
2
  The U.S. Postal Service Office of Inspector General (OIG) may do future reviews on various aspects of readiness
for package growth.
3
  Five-Year Business Plan, April 2013.
                                                            1
Readiness for Package Growth - Delivery Operations                                                  DR-MA-14-001



compartments on cluster box units (CBU). 4 Improving the retention of city carrier
assistants (CCA), using parcel data, 5 and establishing a vehicle shelving system 6 will
further bolster package readiness. Meeting these challenges will help the Postal Service
manage growth and improve its competitiveness in the package business to better meet
customers' needs.

Readiness for Package Growth

The Postal Service’s Delivery Operations organization has successfully managed
package growth from a mail volume and workhour standpoint.

Mail Volume. Since FY 2010, overall package volume has increased, on average,
24 percent and holiday package volume has increased, on average, 38 percent (see
Figures 2 and 3). Delivery Operations has successfully managed these increased
package volume fluctuations, in part, due to flat and letter 7 mail volume declines of
16 and 17 percent, respectively, through normal operational decisions. To
accommodate the added volume, management added extra package delivery trips and
delivered mail on Sunday using overtime and temporary employees.




4
  Several mail receptacles clustered at one delivery point. The CBUs' delivery compartments have been designed to
accommodate magazines, merchandise samples, and packages; and are large enough to handle several days' mail.
Outgoing mail can be deposited in a designated CBU compartment for added convenience.
5
  A tool that analyzes various addresses in an area and orders them into a route with a minimum number of miles and
for which the carrier will need the minimum amount of time to deliver packages.
6
  An engineering design of trays and compartments that accommodates a large number of mail trays and packages in
Postal Service vehicles.
7
  Reflects delivery unit distribution letter volume only and does not include customer service letter volume, which
includes Post Office box volume.


                                                        2
Readiness for Package Growth - Delivery Operations                                                    DR-MA-14-001




        Figure 2. Average Monthly Package Volume – FYs 2010 through 2013 8




             Source: Postal Service eFlash System.


                                 Figure 3. Holiday Package Volume 9




          .
           Source: Postal Service eFlash System.

Workhours. The Postal Service did not experience an increase in workhours due to
package growth, based on our analysis of Delivery Operations’ regular and overtime 10
workhours, from FY 2010 to June1, 2013 (see Figure 4). City letter carrier overtime 11
hours increased by 10 percent from FY 2010 to June 1, 2013; however, in relation to


8
  Package volume calculated for FYs 2010 through 2013.
9
  Holiday package volume calculated for the months of November and December of 2009, 2010, 2011, and 2012.
The months of November and December are part of the new fiscal year.
10
   Rural letter carrier overtime workhours increased from FY 2010 to June 1, 2013; however, the percentage of
overtime in relation to package growth is relatively low, increasing over the same period from 1.25 percent to
2.76 percent.
11
   A recent OIG report, Overtime Use During Fiscal Years 2011 and 2012 (Report Number HR-AR-13-002, dated
July 5, 2013) stated that overtime was sometimes caused by carriers waiting to begin their work and having to use
overtime to complete deliveries. The Postal Service stated that in any year when there are consolidations, closures,
or organizational changes, overtime will go up and the key is to reduce overall workhours.


                                                          3
Readiness for Package Growth - Delivery Operations                                                    DR-MA-14-001



package volume growth, the percentage of overtime has remained around 1.4 percent 12
over the same period.

            Figure 4. Monthly Letter Carrier Hours From FY 2010 to June 2013




     Source: Postal Service eFlash System.

We concluded that opportunities exist to improve readiness for package growth in the
areas discussed below.

Dynamic Routing. Delivery Operations is exploring dynamic routing 13 to prepare for
package growth. Dynamic routing is an optimal delivery solution other package delivery
companies 14 use to efficiently 15 deliver packages. The dynamic routing tool (DRT) will
analyze various addresses in an area and order them into a route that has the minimum
number of miles and for which the carrier will need minimum time to deliver packages.

The Postal Service developed a DRT to begin a planned transition to a 5-day delivery
schedule, with continued package delivery 6 days a week. The Postal Service
developed the DRT to work with the Address Management System (AMS), 16 testing it at
the Brentwood Post Office, Washington, D.C. in the spring of 2013. The Postal Service
also tested Sunday delivery of packages ordered through Amazon.com at several
delivery units in Philadelphia, New York, and Washington, D.C. during July 2013.
12
   City carrier workhours totaled 270,864,682 and Delivery Operations used 39,172,654 overtime hours from
October 1, 2012 through June 30, 2013.
13
   The Postal Service issued a concept paper in FY 2013 on dynamic routing, which is technology that minimizes fuel,
resources, and energy use; and maximizes service.
14
   The Postal Service’s competitors have been using dynamic routing for years and state that, with this tool, they are
able to do more with less. One competitor stated that dynamic routing is a complex system and the company is
continually updating its technology to be more efficient in delivery.
15
   Dynamic routing can include the ability to plan for time penalties for road turns along with many other aspects of
developing the most efficient delivery routes dynamically, adjusting to issues including customized delivery deadlines
for certain items, speed limits, and traffic reporting.
16
   The OIG has an ongoing review of AMS.


                                                          4
Readiness for Package Growth - Delivery Operations                                                     DR-MA-14-001




The Postal Service has an alternative approach to DRT called Routing as a Service
(RAAS), which is offered by a vendor. RAAS testing began in Pittsburgh, PA on July 29,
2013, with testing scheduled to end in September 2013. As package volume grows,
Delivery Operations will require a more sophisticated and dynamic approach for carriers
on delivery routes to deliver packages.

Delivery Equipment. Postal Service delivery equipment was not designed to handle the
upcoming growth in package volume. The existing curbside mailbox was primarily
designed for letters, flats, and small packages, and cannot accommodate large
packages. 17 CBUs and apartment receptacles have package components, but space is
limited (see Figure 5). For example:

      CBU configuration typically can only accommodate packages for two customers at a
       time.

      If a customer does not pick up packages timely, the CBU space is unavailable for
       new packages.

      If the carrier has three or more customers with packages, the carrier decides which
       packages to deliver based on the available capacity of the CBU. For packages the
       carrier cannot deliver to either the door or CBU, the carrier notifies the customer that
       delivery was attempted.




17
     The OIG plans to conduct a review of a new alternative delivery option, parcel receiving boxes.


                                                             5
Readiness for Package Growth - Delivery Operations                                                     DR-MA-14-001




                            Figure 5. Letter Carrier Delivering to a CBU




                 Source: https://www.usps.com/

CCA Retention. The Postal Service has sufficient staffing capacity 18 to manage
package growth; however, the attrition rate for the newly created CCAs 19 remains high,
at 19 percent 20 (see Table 1). With this rate of attrition, Delivery Operations may face
long-term staffing challenges as package volume increases.




18
   As of July 2013, there were 264,894 career and non-career city and rural letter carriers. The career city carrier
workforce has decreased 11.5 percent since September 30, 2010.
19
   A new job classification was created in January 2013 as part of the labor agreement with the National Association
of Letter Carriers. This new position adds flexibility in staffing to assist management in aligning its delivery cost
structure with declining revenue and delivering outside the typical 9 to 5 delivery window.
20
   Delivery Operations lost 6,691 of 35,221 CCAs from February 23 to July 12, 2013.


                                                          6
Readiness for Package Growth - Delivery Operations                                                        DR-MA-14-001



                Table 1. CCA Attrition Rate from February through July 2013

                                  Area                          Attrition Percentage
                  Pacific                                               22.3%
                  Western                                               21.3%
                  Great Lakes                                           18.7%
                  Southern                                              18.6%
                  Capital Metro                                         18.0%
                  Eastern                                               18.0%
                  Northeast                                             16.5%
                  Nationwide Average                                    19.0%
                 Source: Postal Service Organizational Effectiveness.

In July 2013, the Postal Service Headquarters Organizational Effectiveness group
finalized a report titled CCA Hiring Strategies, 21 which includes an attrition review, as a
way to share ideas and allow areas to collaborate. The report also includes strategies
for implementing more targeted training, an established protocol, and best practices to
share with districts. The Postal Service plans to apply these strategies nationwide to
ensure an effective, flexible, and lower cost workforce to help handle increased package
growth. Management implemented corrective action during our review. Therefore, we
are making no recommendation regarding CCA retention in this report.

Carrier Package Pickup Data. The Postal Service needs carrier package data to
manage operations. With increased package pickups, carriers are spending more time
collecting and transporting packages, which affects route street time. 22 Carrier package
pickup volume grew 32 percent from FYs 2011 through 2012 (see Table 2). Delivery
operations did not regularly track package data for operations because this was a
relatively low volume contribution area.

                               Table 2. Carrier Pickup Package Volume

                                              Package
                                              Volume             Package             Average           Average
                    Total Volume              Change             Volume              Pickup           Packages
                     of Package               Between           Percentage           Volume              Per
        FYs           Pickups                   FYs              Change              Per Day           Pickup
        2011         62,740,280                                                       206,383             9.9
        2012         82,555,391               19,815,111                32            265,451            10.6
     Source: Enterprise Data Warehouse (EDW).

Delivery Operations managers indicated that Marketing normally maintains carrier
package pickup data 23 and periodically shares it with them.

21
   As of July 26, 2013.
22
   Analyzing the amount of city carrier street time will be part of the OIG's PARIS 2.0, City Delivery Efficiency Model.
23
   In collaboration with Delivery Operations management, the number of carrier package pickups is an item the OIG
plans to add to its PARIS 2.0, City Delivery Efficiency Model.


                                                            7
Readiness for Package Growth - Delivery Operations                                               DR-MA-14-001



Delivery and Collection Fleet. Postal Service vehicles were not designed to handle the
upcoming growth in packages. The long-life vehicles (LLVs) were primarily designed for
letters, flats, and small packages. Delivery Operations is working with Engineering to
design a shelving system for the vehicles to accommodate future package growth.

There are over 190,000 delivery and collection vehicles, many of which are 18 to
25 years old. 24 In June 2011, the Postal Service developed a plan 25 to purchase new
vehicles; however, the Postal Service’s continuing financial situation prevents it from
implementing the plan. We are conducting an in-depth review of vehicles, so we are not
making recommendations on vehicle replacement in this report. 26

Meeting these challenges will help the Postal Service manage package growth, improve
its competitiveness in the package business, and assist in meeting customers' needs.

Recommendations

We recommend the vice president, Delivery and Post Office Operations:

1. Continue to test and implement dynamic routing to manage increased package
   growth on delivery routes.

2. Study package growth trends on delivery routes and modify cluster box unit package
   compartments, as needed, for additional delivery capacity.

3. Use operational reports to proactively monitor and manage Carrier Package Pickup
   data to make adjustments, as needed, to improve operational efficiency.

We recommend the vice president, Delivery and Post Office Operations, coordinate with
the vice president, Engineering Systems, to:

4. Implement a vehicle shelving system to accommodate package growth.




24
   Delivery Vehicle Replacement Strategy (Report Number DA-AR-10-005, dated June 16, 2010). Delivery Fleet
Strategies (Report Number CI-AR-12-006, dated August 14, 2012).
25
   Light Delivery Vehicle Preliminary Business Case, dated June 23, 2011.
26
   The OIG is conducting an audit on next generation delivery and collection vehicles.


                                                       8
Readiness for Package Growth - Delivery Operations                            DR-MA-14-001




Management's Comments

Management agreed with the findings and recommendations. Management noted that
these issues were discussed during meetings with the OIG and corrective actions are
being developed by the program offices.

For recommendation 1, Delivery and Post Office Operations responded that it has
tested various versions of dynamic routing for over a year and will continue testing and
implementing dynamic routing in specific areas through December 2013.

For recommendation 2, management stated it has taken corrective action and will
continue to study growth trends on delivery routes. Delivery and Post Office Operations
stated that it has collaborated with Engineering to design larger mailboxes and CBUs
with an increased number of package compartments for use where additional capacity
is needed and space is available.

For recommendation 3, management implemented corrective actions and will use them
regularly to monitor Carrier Pickup data found in the Application System Reporting
section in EDW.

For recommendation 4, management stated it took corrective actions and developed
three different shelving systems for LLVs. It stated the systems are under evaluation at
five sites and evaluation will be completed by the end of Quarter (Q) 1, FY 2014. It
stated that upon successful completion, and if funds are available in Q2, FY 2014,
shelving units can be available to be deployed starting in Q4, FY 2014.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management's Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report.

The OIG considers all recommendations significant, and therefore requires OIG
concurrence before closure. Management has completed corrective actions for
recommendations 1, 2, 3; therefore, these recommendations can be closed with the
issuance of this report. Consequently, the OIG requests written confirmation when
corrective actions are completed for recommendation 4. This recommendation should
not be closed in the Postal Service’s follow-up tracking system until the OIG provides
written confirmation that the recommendation can be closed.




                                                     9
Readiness for Package Growth - Delivery Operations                                                      DR-MA-14-001



                                  Appendix A: Additional Information

Background

The Postal Service delivered over 3.5 billion packages during FY 2012 and expects an
increase in package delivery of over 7 percent during FY 2013. The Postal Service
welcomes this growth at a time of declining letter and flat mail volume. The Postal
Service has implemented Delivery Results, Innovation, Value, and Efficiency initiatives,
including Shipping Growth and Building a World-Class Package Platform. 27 These two
initiatives focus on the Postal Service becoming the shipper of choice and dominating
the market for shipping business-to-customer packages. In FY 2012, the Postal Service
named “Compete for the Package Business” as one of its four core business strategies.

Objective, Scope, and Methodology

Our objective was to assess operational readiness for package growth in Delivery
Operations. To accomplish our objective, we:

    Examined criteria for world-class package delivery components, including volume,
     capacity, systems, resources, transportation, and equipment. We used competitors'
     metrics, such as advanced routing technology, customer-focused processes, and
     other technology solutions.

    Reviewed Postal Service documentation, including applicable policies and
     procedures and prior audit reports on topics related to packages, such as routing
     tools, vehicles, delivery equipment, staffing, and carrier package pickup data.

    Reviewed package volume data for FYs 2010 through 2012 and staffing resources
     for FY 2011 through July 2013.

    Reviewed data for Delivery Operations' initiatives for dynamic routing and hiring of
     city carrier assistants.

    Interviewed officials at Postal Service Headquarters; the Southern, Western, and
     Great Lakes areas; and the Arizona and South Florida districts to discuss managing
     package growth, staffing, and attrition.

We conducted this review from March through November 2013 in accordance with the
Council of the Inspectors General on Integrity and Efficiency, Quality Standards for
Inspection and Evaluation. We discussed our observations and conclusions with
management on September 11, 2013, and included its comments where appropriate.

We assessed the reliability of computer-processed data from the EDW, but we did not
test controls over the system; however, we checked the reasonableness of results by

27
  The OIG reported on the Postal Service's real-time scanning capabilities in the report titled, Delivery Data
Transmission (Report Number DR-MA-13-003, dated August 6, 2013).


                                                          10
Readiness for Package Growth - Delivery Operations                         DR-MA-14-001



reviewing existing information about the data and the system that produced them. We
also relied on supporting information provided by Postal Service officials. We
determined that the data were sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG has conducted one audit related to this topic, Package Delivery Growth,
(Report Number MS-AR-12-003, dated May 4, 2012). The report stated that the Postal
Service’s strategies for growing its package business have helped it keep pace with
competitors in growing domestic and international package markets. Although the
strategies are sound, their effectiveness has been impacted by lack of a strategic
decision-making process for evaluating new sales opportunities, sales tracking system
shortcomings, and chronic sales staff vacancies. The Postal Service can grow its
package business by stabilizing sales staffing levels and adding new products.
Management agreed with our findings and recommendations and set forth its plans for
corrective actions. Management disagreed with the monetary impact of $647 million in
subsequent correspondence stating that, even with a reduced sales force, it has
increased sales by focusing on higher value sales and sales execution.




                                                     11
Readiness for Package Growth - Delivery Operations             DR-MA-14-001



                           Appendix B: Management’s Comments




                                                     12
Readiness for Package Growth - Delivery Operations        DR-MA-14-001




                                                     13
